      Department of Homeland Security



       Costs Invoiced by Sacramento County for a 

       Checked Baggage Screening Project Under 

       Agreement Number HSTS04-09-H-REC148 





             American Recovery and Reinvestment Act of 2009



OIG-12-123                                                    September 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov

                                      SEP 14 2012
MEMORANDUM FOR:              John P. Sanders
                             Assistant Administrator
                             Office of Security Capabilities
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT:                     Costs Invoiced by Sacramento County for a Checked
                             Baggage Screening Project Under Agreement Number
                             HSTS04-09-H-REC148

Attached for your information is our final letter report, Costs Invoiced by Sacramento
County for a Checked Baggage Screening Project Under Agreement Number HSTS04-09­
H-REC148. We incorporated the formal comments from the Administrator of the
Transportation Security Administration in the report.

The report contains two recommendations to (1) resolve unsupported invoiced costs of
$246,479 and (2) ensure that Sacramento County complied with the requirement to buy
American goods. The Administrator concurred with the two recommendations and
described the corrective actions to be taken by the contracting officer. As prescribed by
the Department of Homeland Security Directive 077-1, Follow-Up and Resolutions for
the Office of Inspector General Report Recommendations, within 90 days of the date of
this memorandum, please provide our office with a written response that includes your
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion
date for each recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations
will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.


Major contributors to this report are Roger La Rouche, Director of Recovery Act Audits; 

Robert Leonard, Audit Manager; Gary Greer, Auditor; and Katrina Reuben-Bynes, Report 

Referencer. 


Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


 Background
 The American Recovery and Reinvestment Act of 2009, as amended (Recovery Act),
 appropriated $1 billion to the Transportation Security Administration (TSA) for
 “procurement and installation of checked baggage explosives detection systems and
 checkpoint explosives detection equipment ….” TSA awarded $574,023,419 of that
 amount to 25 airport organizations for 29 projects modifying airports to accommodate
 new baggage-screening equipment.

 Under Other Transaction Agreement (OTA) No. HSTS04-09-H-REC148, dated August 7,
 2009, TSA agreed to provide Sacramento County (County) up to $11,340,000
 (90 percent) of estimated project costs of $12,600,000 for a Checked Baggage
 Inspection System (CBIS) solution at Sacramento International Airport’s (Airport) new
 Terminal B.

 The OTA requires the County to submit invoices for reimbursement of project costs.
 TSA will reimburse project costs limited specifically to those associated with the CBIS
 (defined as that area from the baggage insertion point into the explosives detection
 system screening matrix to the points where screened baggage is reinserted into the
 baggage makeup area), the On Screen Resolution room, the Checked Baggage
 Resolution Area, and the Explosives Detection System network equipment room.

 As of May 15, 2012, the County submitted nine invoices to TSA for reimbursement of
 $6,393,427 ($7,103,808 × 90 percent). The invoices covered the period from January
 2010 through March 2012. Reimbursement for eligible project costs is based on the
 scope of the OTA; Office of Management and Budget (OMB) Circular A-87, Cost
 Principles for State, Local and Indian Tribal Governments; and the TSA publication
 Reimbursable/Non-Reimbursable Costs for the Electronic Baggage Screening Program,
 version 1.0, June 2008.

 The OTA also requires the County to comply with Recovery Act provisions to submit
 quarterly recipient reports to the Federal Government; pay prevailing wages as
 determined by the Secretary of Labor; and use American iron, steel, and manufactured
 goods. 1




 1
  On October 13, 2009, the Department of Homeland Security (DHS) issued a limited waiver of the “buy
 American” requirements for each TSA Electronic Baggage Screening Program project. The waiver specifies
 that at least 95 percent of the costs of each project will comply with the buy American requirements of
 section 1605 of the Recovery Act, and allows up to 5 percent of total project costs to be used for non-
 American products.


www.oig.dhs.gov                                      2                                        OIG-12-123
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


 Results of Review
 We questioned $246,479 of the $6,393,427 (Federal share) invoiced by the County. The
 questioned costs represent project management, for which there was inadequate
 support for the amount allocated to the TSA project. We concluded that the County
 fulfilled the requirements for submitting quarterly reports and for paying prevailing
 wages. In addition, we determined that the County’s quarterly reports contained
 accurate expenditure and jobs data. The County could not, however, provide adequate
 support that it complied with the requirement for buying goods manufactured in
 America.

 Unsupported Costs

 We classified project management costs of $246,479 as unsupported because the
 County did not properly allocate the costs to the TSA-funded project.

 Guidelines in OMB Circular A-87 say that to be allowable, a cost must be properly
 documented and be allocable to the Federal award. The guidelines say that “[a] cost is
 allocable to a particular cost objective if the goods or services involved are chargeable
 or assignable to such cost objective in accordance with relative benefits received.”

 In May 2008, the County embarked on a modernization program for the Airport,
 referred to as The Big Build. The Big Build program included the construction of a
 baggage-handling system (BHS) for the new Terminal B. In addition to the CBIS, the BHS
 comprises outbound conveyors, airline baggage makeup devices, domestic inbound
 conveyors and carousels, international inbound conveyors and claim device, a recheck
 conveyor, and all associated logic and controls.

 The County invoiced TSA for project management costs totaling $246,479 ($273,865 ×
 90 percent). The $273,865 consisted of the salary and expenses for the “BHS/APM
 [Automated People Mover] Project Manager” ($167,224) and the salary and expenses
 for the “Baggage Handling Project Mgr.” ($106,641). The County allocated all such costs
 to TSA’s project for the CBIS. We could not determine how much of the work performed
 by the two managers was directly related to the TSA-funded CBIS project and how much
 was applicable to the other BHS features.

 The County’s Associate Administrative Analyst II/Special Projects disagreed with our
 position and said that both of the project managers were mandated to work specifically
 on the CBIS. However, project reports from the subcontractor that performed the BHS
 work to one of the project managers discussed all of the BHS features, not just the CBIS.
 Therefore, we believe that the project managers’ costs should have been allocated to



www.oig.dhs.gov                                3                                   OIG-12-123
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

 both the TSA project and the BHS project in proportion to the benefits actually derived.
 Therefore, we classified the $246,479 as unsupported.

 Use of American Iron, Steel, and Manufactured Goods

 Section 1605 of the Recovery Act requires the use of American iron, steel, and
 manufactured goods in the construction of Recovery Act projects. Under DHS’ limited
 waiver of the requirement for TSA’s Electronic Baggage Screening Program projects, up
 to 5 percent of the total project costs may be for the purchase of non-American goods.
 However, the County’s support to demonstrate compliance with the “buy American”
 requirement was incomplete.

 The County submitted invoice packages to TSA that included “Buy American Exceptions”
 forms. The final submittal, dated March 21, 2012, showed that the total CBIS materials
 cost to date was $3,204,782, and contained the statement “None of the materials
 delivered to-date [were foreign].” Although this submittal appeared to have been
 signed by the BHS subcontractor, most of the earlier submittals we reviewed were not
 signed or dated. In addition, the County did not obtain any letters or other documents
 from the BHS subcontractor or the individual BHS vendors certifying the source of the
 components that were used for the CBIS. Therefore, we could not determine whether
 the County complied with the requirement to use American manufactured goods.

 TSA officials told us that they have not examined the County’s compliance with the
 requirement to use American goods. TSA did publish an administrative checklist on
 February 3, 2011, to aid contracting officials in determining “buy American” compliance.
 TSA’s Director, Security Technology Acquisition Division, told us that TSA is developing
 procedures to implement the checklist.

 We believe that TSA should use the checklist to help determine whether the County
 complied with the buy American requirement for the CBIS. The County’s Associate
 Administrative Analyst II/Special Projects told us that she believed the County had
 complied with the buy American requirement because it had used the form specified in
 the OTA.


 Recommendations
 We recommend that TSA’s Contracting Officer:

 Recommendation #1: Resolve the $246,479 of unsupported project management costs.




www.oig.dhs.gov                               4                                  OIG-12-123
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

 Recommendation #2: Review the iron, steel, and manufactured goods used in the CBIS
 to determine whether the County complied with applicable “buy American”
 requirements.


 Management Comments and OIG Analysis

 TSA provided formal comments to our draft report, which are included as appendix B.

 TSA Comments to Recommendation #1

 TSA concurred with the recommendation and said that it “will work with the County to
 determine the extent to which the invoiced project management costs were related to
 the CBIS.”

 OIG Analysis

 Although TSA concurred with the recommendation, it did not identify specific corrective
 actions. Therefore, the recommendation will remain unresolved and open until TSA
 provides a corrective action plan including target completion dates and responsible
 parties.

 TSA Comments to Recommendation #2

 TSA concurred with the recommendation and said that it will work with the Contracting
 Officer’s Technical Representative and the County to obtain certification from the
 subcontractor and vendors that the materials used were buy American compliant.

 OIG Analysis

 TSA’s decision sufficiently responds to the recommendation. However, the
 recommendation will remain unresolved and open until TSA provides a corrective action
 plan including target completion dates and responsible parties, or evidence that it has
 obtained the certifications.




www.oig.dhs.gov                              5                                  OIG-12-123
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


 Appendix A
 Objectives, Scope, and Methodology
 The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
 established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
 to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
 special reports prepared as part of our oversight responsibilities to promote economy,
 efficiency, and effectiveness within the Department.

 The objectives of this audit were to determine whether (1) costs invoiced by
 Sacramento County were allowable, allocable, and reasonable according to the funding
 agreement and applicable Federal requirements and (2) expenditure and jobs data
 contained in the most recent quarterly recipient reports were adequately supported.
 Our audit covered invoiced costs of $7,103,808 (Federal share of invoiced costs is
 $6,393,427) for the period January 1, 2010, to March 31, 2012. This represents the total
 amount invoiced as of May 15, 2012.

 Our tests and procedures included the following:

 •	 Reviewing the Recovery Act, OTA, TSA, and OMB guidelines

 •	 Interviewing TSA officials to obtain an understanding of the project and project
    management

 •	 Interviewing County officials to obtain an understanding of the project, project
    management, accounting, and invoicing

 •	 Examining County accounting records and supporting documents for the amounts
    invoiced to TSA

 •	 Reviewing the eligibility of 100 percent of the costs submitted for reimbursement,
    and discussing our findings with County officials

 •	 Inspecting the CBIS

 •	 Reviewing the audit working papers of the certified public accounting firm that
    performed the Single Audit of the County for the fiscal year ending June 30, 2011

 The Single Audit of the County was performed by Vavrinek, Trine, Day & Co., LLP,
 Certified Public Accountants. However, in OTA Modification P00003, TSA deleted the
 requirement for the County to comply with OMB Circular A-133, Audits of States, Local


www.oig.dhs.gov                               6	                                 OIG-12-123
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

 Governments, and Nonprofit Organizations. As a result, the certified public accountants
 did not subject the Federal funds for the CBIS to financial or compliance testing.

 We tested County records to determine compliance with OMB Circular A-87 and with
 other terms and conditions of the OTA. We considered the County’s internal controls
 over the administration of TSA funds in determining our audit procedures.

 Our audit was conducted without the benefit of a technical evaluation by TSA of the
 materials and manufactured components used in the construction of the CBIS;
 therefore, our conclusions are qualified to the extent that a technical evaluation may
 affect the allowability of invoiced costs.

 We conducted this performance audit between December 2011 and May 2012,
 pursuant to the Inspector General Act of 1978, as amended, and according to generally
 accepted government auditing standards. Those standards require that we plan and
 perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
 basis for our findings and conclusions based upon our audit objectives. We believe that
 the evidence obtained provides a reasonable basis for our findings and conclusions
 based upon our audit objectives.




www.oig.dhs.gov                                7                                  OIG-12-123
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


 Appendix B
 Management Comments to the Draft Report

                                                                                 u.s. Oep.nmul or Homd and S«utllJl
                                                                                 601 South I2lh S\m:1
                                                                                 AllioglOn. VA 2OS9S


                                                                                 Transportation
                                                                                 Security
                  All> 2 1 2012                                                  AdmiIristTation
                                                    INFORMATION


             MEMORANDUM FOR:              Charles Edwards
                                          Acting Inspector Genera]
                                          Department of Homeland Security
                                                                           ,v
             FROM:                        John S. Pistole   !AI'   ~\.\\
                                          Administrator     -0'
             THRO UGH:                    l.W. Halinski.qd
                                          Deputy Administrator

             SUBlECT:                     Transportation Security Administration 's Response to the
                                          U.S, Department of Homeland Security Office of Inspector
                                          Genera] 's Draft Report: Costs Invoiced by Sacramento County for
                                          a Checked Baggage Screening Project under Agreement No.
                                          HSTS04-09-H-RECI48 - For Official Use Only




             This memorandwn constitutes the Transportation Security Administration's (TSA) formal
             Agency response to the U.S, Department of Homeland Security (DBS), Office of Inspector
             General's (OIG) draft letter report of July 20 12, Cosl:; Invoiced by Sacramento County for a
             Checked Baggage Screening Project under Agreemenl No. HSTS04~09~ H· RECJ48 - For Official
             Use Only. TSA appreciates the opportunity to review and provide comments to your draft
             report.

             Background

              As pan of the American Recovery and Reinvestment Act of 2009 (Recovery Act), TSA was
              appropriated 51 billion for the "procurement and installation of checked baggage explosives
              detection systems and checkpoint explosives detection equipment.. ... TSA has awarded over
              $500 million in Recovery Act funding to airport organizations for modifYing facilities to
             ·accommodate new baggage-screening equipment through the Electronic Baggage Screening
              Program.




www.oig.dhs.gov                                               8                                                   OIG-12-123
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security



                                                                                                              2

             One of these Recovery Act awards was to Sacramento County (the County) for a Checked
             Baggage Inspection System (eB IS) project in the new Tenninal B of Sacramento International
             Airport (SMF) through an Other T ransaction Agreement (OTA) dated August 7, 2009. In May
             2008, and prior to this OTA, the County started a modernization program for SMF that included
             the construction of a baggage.handling system (BHS) for the new Tenninal B. The CBIS project
             is a portion of the overaJl BHS. Under the OTA, TSA agreed to provide the County up to
             $1 1,340,000, representing 90 pe",ent of the estimated project costs of SI2,600,OOO for the CBIS
             project.

             Discussion

             The draft OIG letter report questions approximately 4 percent of the costs invoiced by the
             County, finding them unsupported because they were not properly allocated to the CBIS project.
             Specifically. the DIG questions $246,479, which represents costs for project management,
             consisting of salary and expenses for a "BHS/APM [Automated People Mover] Project
             Manager" and a "Baggage Handling Project Mgr." The OIG could not determine which portion
             of the work perfonned by the two project managers was directl y related to the CBIS project and
             which portion was applicable to other BHS features. The County informed the OIG that the two
             project managers were mandated to work specifically on the eBIS. Despite this assertion, the
             010 still deems these costs to be unsupported, as one of the project managers received project
             reports discussing all of the BHS features, not just the CB lS, from a subcontractor that
             performed the BHS work. Accordingly, OIG believes that costs for project management should
             have been allocated proportionally to the CB IS project and the BHS project. To resolve these
             unsupported costs, TSA wi ll work with the County to determine the extent to which the invoiced
             project management costs were related to the CBlS project.

             The draft report also fi nds that TSA officials did not examine the County's compliance with the
             Buy American Act. As the OIG notes, the County submitted invoice packages to TSA that
             included "Buy American Exceptions" forms. The final submittal contained the statement that
             ''In]one of the materials del ivered to-date [were foreign]." While this final submittal was signed
             by the BHS subcontractor. most of the earlier subm ittals reviewed by the 010 were not signed or
             dated. Additionally, the County did not obtain any documentation from the BHS subcontractor
             or individual BHS vendors certifying the source of the components used for the eBIS. In order
             to verify that the goods used are in fact Buy American Act compliant, TSA will work with the
             County to obtain certification of the sources of materials used in the CBIS project.

             TSA concurs with both of the recommendations made in the subject draft report and will take the
             actions necessary to resolve these issues.

             Recommendation 1: TSA's Contracting Officer resolve tbe S246,479 of unsupported
             project management costs.

             TSA Concun: As indicated above, TSA will work with the County to determine the extent to
             which the invoiced project management costs were related to the CBIS project




www.oig.dhs.gov                                               9                                                    OIG-12-123
                                 OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security



                                                                                                             3

            Recommendation 2: TSA's Co ntracting Officer review the iron, steel, and ma nufactured
            goods used in tbe CBIS project to determine wbether the County complied with applicable
            "Buy America n" requirements.

            TSA Co ncurs: In order to verify that the materi als used arc compliant with Buy American Act
            requirements, the Contracting Officer will work with the TSA Contracting Officer's
            Representative and the County 10 obtain certification from the subcontractor and vendors.

            Additionally, the TSA Office of Acquisition has begun using a checklist to assist acquisition
            workforce staff in assessing and monitoring Recovery Act recipient compliance with Buy
            American Act requi rements. This checklist was provided 10 the OIG in TSA's 90-day update to
            0 10- 11 -07, Final Report, Use of American Recovery and Reinveslmenr ACI Funds by Ihe TSAfor
            Ihe Eleclronic Baggage Screening Program (November 12, 2010). This checklist has previously
            bee n agreed to by the 0 10 as a beneficial tool in the resolution of si mi lar recommendati ons on
            other Recovery Act-related audits.




www.oig.dhs.gov                                              10                                                   OIG-12-123
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix C
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Chief Privacy Officer
Recovery Act Coordinator

Transportation Security Administration

Acting General Manager, Checked Baggage Division/Program Manager
 Electronic Baggage Screening Program, TSA
Audit Liaison Official, TSA

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




 www.oig.dhs.gov                               11                       OIG-12-123
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
